             Audit Report



Payments Resulting from Disability
 Insurance Actions Processed Via
  Manual Adjustment, Credit and
        Award Processes




       A-04-11-01114 | June 2013
MEMORANDUM


Date:      June 28, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Payments Resulting from Disability Insurance Actions Processed Via Manual Adjustment,
           Credit and Award Processes (A-04-11-01114)

           The attached final report presents the results of our audit. Our objective was to determine
           whether Disability Insurance payments resulting from actions completed through the Manual
           Adjustment, Credit and Award Processes were accurate and approved.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Payments Resulting from Disability Insurance Actions
Processed Via Manual Adjustment, Credit and Award
Processes
A-04-11-01114
June 2013                                                                  Office of Audit Report Summary

Objective                                 Our Findings

To determine whether Disability           The error rate for DI MADCAP payment transactions we reviewed
Insurance (DI) payments resulting         was 4 percent—an improvement of 50 percent over our previous
from actions completed through the        report in which we identified an 8-percent error rate. Specifically,
Manual Adjustment, Credit and Award       of the 250 randomly sampled MADCAP payments, 11 (4 percent)
Processes (MADCAP) were accurate          had payment errors totaling $32,867—$15,525 in overpayments
and approved.                             and $17,342 in underpayments. Although the overall precision of
                                          these complex transactions is relatively high, the 4-percent error
Background                                rate still resulted in large payment errors. We estimate that
                                          approximately 18,980 MADCAP payments over $1,000 issued
The Social Security Administration        from October 1, 2010 to September 30, 2011 had payment errors
(SSA) administers the Old-Age,            totaling $56.7 million. The MADCAP payment errors we
Survivors and Disability Insurance        identified resulted from mistakes in processing various claims
program under Title II of the Social      actions. In general, these mistakes seemed to occur because SSA
Security Act, as amended. SSA’s           staff did not recognize all the factors that affect DI benefits.
automated systems process monthly DI
payments. However, when the               Additionally, MADCAP payments of $6,000 or more did not
automated systems cannot completely       always have documentation of the required approvals. Of the
process an action, authorized             250 randomly selected MADCAP payments, 110 were for
technicians at SSA’s program service      $6,000 or more and required appropriate review and approval.
centers (PSC) must manually process       However, 82 (74.5 percent) of these payments lacked
the actions through the MADCAP            documentation to substantiate the review and approval of the
system. For example, authorized PSC       actions taken and the payment amount.
employees may establish an
individual’s Master Beneficiary           Our Recommendations
Record (MBR); initiate payment of DI
benefits; update or correct information   1. Issue a reminder to PSC staff, and consider conducting
on the MBR (which may alter the              additional training, regarding the unique requirements of DI
monthly benefit amount); and                 MADCAP payment actions.
terminate benefits through the
MADCAP system.                            2. Ensure that all Benefit Authorizers’ reviews and approvals of
                                             MADCAP payments in excess of $6,000 are documented and
                                             retained in SSA’s paperless document retention system.

                                          3. Take action on the 11 error cases to collect identified
                                             overpayments or issue underpayments to the beneficiaries.

                                          SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     MADCAP Payment Errors ........................................................................................................3
     MADCAP Payments Lacked Evidence of a Second Review ....................................................5
Conclusions ......................................................................................................................................6
Recommendations ............................................................................................................................6
Agency Comments ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)
ABBREVIATIONS
DI                 Disability Insurance

MADCAP             Manual Adjustment, Credit and Award Processes

MBR                Master Beneficiary Record

OIG                Office of the Inspector General

POMS               Program Operations Manual System

PSC                Program Service Center

SSA                Social Security Administration




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)
OBJECTIVE
We conducted this review to determine whether Disability Insurance (DI) payments resulting
from actions completed through the Manual Adjustment, Credit and Award Processes
(MADCAP) were accurate and approved.

BACKGROUND
The Social Security Administration (SSA) administers the Old-Age, Survivors and Disability
Insurance program under Title II of the Social Security Act (Act), as amended. 1 Section 223 of
the Act 2 requires that SSA provide monthly DI benefits to eligible individuals who meet specific
disability requirements as well as their eligible dependents. SSA’s automated systems process
monthly DI payments. However, when SSA’s automated or direct input systems cannot
completely process an action, authorized technicians at SSA’s program service centers (PSC)
must manually process the actions through the MADCAP system. For example, through the
MADCAP system, authorized PSC employees may process the following types of actions:
establish a beneficiary’s Master Beneficiary Record (MBR); 3 initiate payment of DI benefits;
update or correct information on the MBR (which may alter the monthly benefit amount); and
terminate benefits.

A MADCAP payment for initial DI benefits usually covers several months, serving as a “catch-
up” payment for benefits due from the beneficiary’s entitlement date until the date SSA begins
processing the monthly payments. SSA refers to the period between entitlement and first
payment as the initial award period.

After SSA determines a beneficiary is eligible for DI benefits, it may become aware of events or
circumstances that affect the individual’s DI benefit amount or eligibility. For example, a
MADCAP payment may occur when (1) a change in circumstances causes an increase in benefits
and SSA must retroactively adjust the beneficiary’s DI benefits or (2) SSA reissues
undeliverable benefits to a corrected address.

In April 2006, we issued a report on Payments Resulting from Disability Insurance Actions
Processed via the Social Security Administration’s Manual Adjustment, Credit and Award


1
    Section 201, et. seq. of the Act, 42 U.S.C. § 401, et. seq.
2
    42 U.S.C. § 423.
3
 SSA establishes an MBR for each DI claimant. The MBR maintains pertinent information needed to pay accurate
benefits to the claimant and all entitled dependents. The information maintained includes identification data (name,
Social Security number, date of birth, address), earnings history, type and date of disability, monthly DI benefit
amounts, and the reason for terminating or suspending benefit payments. Thus, any change in a claimant’s or
dependent’s situation must be reflected on the MBR to ensure its integrity and the accuracy of benefit payments.




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                                          1
Processes (A-04-05-15042). In that audit, we reviewed a sample of 250 DI MADCAP payments
ranging from $1,000 to $29,999.99 and issued from July 1 through September 30, 2004. Our
audit tests identified an 8-percent payment error rate, which we estimated resulted in about
$19.7 million in payment errors during the 3-month period. As such, we made the following
recommendations to address SSA staff’s diligence in ensuring payment accuracy when
calculating MADCAP payments.

•   Issue a reminder and, if necessary, further guidance to responsible PSC staff requiring that all
    underlying actions resulting in MADCAP payments be verified to the supporting
    documentation.

•   Provide specific guidance on documenting the review and approval of MADCAP payments
    $3,000 or more and the retention of review evidence.

•   Ensure payments of $30,000 or more, related to the same individual and action, are processed
    through the Single Payment System.

In our current audit, we examined a sample of DI MADCAP payments issued from
October 1, 2010 through September 30, 2011. In this period, SSA DI beneficiaries received over
$3.2 billion in MADCAP payments, with single payments ranging from $1,000 to $29,999.99.
See Appendix A for further information regarding our scope and methodology.

SSA policy requires that each MADCAP payment $6,000 or greater be reviewed to verify the
accuracy and appropriateness of the action and payments. 4 Staff at SSA’s PSCs— Benefit
Authorizers—are responsible for performing the reviews.

RESULTS OF REVIEW
The error rate for DI MADCAP payment transactions we reviewed was 4 percent—an
improvement of 50 percent over our previous report in which we identified an 8-percent error
rate. Specifically, of the 250 randomly sampled MADCAP payments, 11 (4 percent) had
payment errors totaling $32,867—$15,525 in overpayments and $17,342 in underpayments.
Although the overall precision of these complex transactions is relatively high, the 4-percent
error rate still resulted in large payment errors. We estimate that approximately
18,980 MADCAP payments over $1,000 issued from October 1, 2010 through
September 31, 2011 had payment errors totaling about $56.7 million. See Appendix B for our
projection methodology.




4
 For the period covered by our 2006 audit, SSA policy required such reviews for MADCAP payments $3,000 or
greater. SSA raised this threshold in its revised policy statement.




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                                   2
Various mistakes contributed to these payment errors. For example, SSA staff did not

•   correctly calculate the past-due benefits paid;

•   terminate payments when claimants were not eligible for benefits;

•   recognize that a replacement benefit check had already been issued; and

•   correctly adjust MADCAP payments for cases with workers’ compensation benefits.

Additionally, SSA did not always have documentation that MADCAP payments of $6,000 or
more had the required approvals. While SSA staff may have appropriately reviewed and
approved these payments, we were unable to verify the actions because documentation was not
always available. Of the 250 randomly selected MADCAP payments, 110 were for $6,000 or
more and required appropriate review and approval. However, 82 (74.5 percent) of these
payments lacked documentation to substantiate the review and approval of the actions taken and
the payment amount.

MADCAP Payment Errors
Of the 250 randomly selected MADCAP payments, 11 (4 percent) had payment errors totaling
$32,867—$15,525 in overpayments and $17,342 in underpayments. Table 1 details the
MADCAP payment errors we identified.




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                        3
                                     Table 1: MADCAP Payment Errors
           MADCAP
                         Payment         Type of
           Payment                                                  Reason for Payment Error
                          Error       Payment Error
            Amount
                                                            SSA did not recognize that it had already
    1        $4,150        $3,083      Overpayment         released excess benefits it withheld for the
                                                                   beneficiary’s attorney fees.
                                                           SSA issued MADCAP payment when the
    2         2,634          2,634     Overpayment
                                                            beneficiary had an existing overpayment.
    3         2,679          2,679     Overpayment       Beneficiary was no longer entitled to benefits.
                                                           SSA issued MADCAP payment when the
    4         2,330          2,330     Overpayment
                                                           beneficiary had an existing overpayment.
    5         3,791          2,153     Overpayment            SSA miscalculated past-due benefits.
                                                        SSA did not reduce the DI benefit for the State
    6         1,195          1,195     Overpayment
                                                          workers’ compensation payments received.
                                                         SSA did not recognize it had already issued a
    7         1,062          1,062     Overpayment
                                                                     replacement check.
    8         1,935            389     Overpayment            SSA miscalculated past-due benefits.

    9         4,460            857    Underpayment            SSA miscalculated past-due benefits.
                                                            SSA withheld benefits to collect for an
    10        9,810          1,090    Underpayment
                                                               incorrect overpayment amount.
                                                          SSA made a coding error that prevented the
    11       19,829        15,395     Underpayment        automated calculation of the entire past-due
                                                                           benefit.
                Total     $32,867

Below are examples of payment errors we identified in the sampled cases in Table 1.

•        In case 1, SSA overpaid $3,083 to a beneficiary because it did not recognize it already
         released a portion of the past-due benefits withheld to pay the beneficiary’s attorney fees. 5 In


5
  To assist with obtaining Title II benefits, claimants may appoint a qualified representative (attorneys or
non-attorneys) to act on their behalf in matters before SSA (POMS GN 03910.010 B., March 14, 1995). Generally,
SSA calculates claimant representative fees based on past-due benefits (POMS GN 03920.017 D., July 25, 2012).
Past-due benefits typically accrue from the claimant’s benefit entitlement date through the month in which SSA
certifies the claim for payment (POMS GN 03920.030 B., April 27, 2011). In this case, SSA withheld the attorney
fee from the claimant’s past-due benefits and issued the fee payment directly to the attorney.




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                                         4
    March 2011, SSA issued a favorable decision on the beneficiary’s DI claim. SSA estimated
    the attorney fee at $5,139 and designated this amount to be withheld from the beneficiary’s
    past-due MADCAP benefit payment. The attorney later notified SSA that the fee totaled
    only $2,056. In July 2010, SSA paid the beneficiary $3,083 ($5,139 less $2,056) for benefits
    withheld in excess of the actual attorney fee. However, in November 2010, when SSA issued
    the $4,150 past-due benefit MADCAP payment, it included the $3,083 again.

•   In case 3, SSA overpaid a second child on a father’s DI claim. In August 2007, SSA
    terminated all benefits on the DI claim because SSA determined the father was no longer
    disabled (as of April 2006). As a result, SSA recorded overpayments for all individuals on
    the DI record who received benefits—including a $3,400 overpayment for the second child.
    The father appealed SSA’s decision. In May 2010, a Federal court reversed SSA’s decision
    and ordered SSA to pay all past-due benefits and negate the overpayments. In October 2010,
    SSA issued the second child two MADCAP payments totaling $7,827, for all past-due
    benefits. However, in calculating the past-due benefits, SSA did not recognize the second
    child reached age 18 in April 2008 and was no longer eligible for benefits. As a result, SSA
    overpaid the second child $2,679.

•   In case 4, SSA issued a $2,330 MADCAP payment for past-due benefits. However, in
    January 2011, when SSA issued the MADCAP payment, the beneficiary had a
    $15,186 overpayment on his record. In August 2004, SSA recorded an $18,624 overpayment
    on the beneficiary’s Title II record. Beginning in 2008, SSA withheld $3,371 from the
    beneficiary’s monthly benefits, which reduced the overpayment to $15,186. Because of the
    existing overpayment, SSA should not have issued the $2,330 MADCAP payment in
    January 2011.

•   In case 11, SSA underpaid the first child on the father’s Title II record by $15,395. In
    May 2011, SSA issued a $19,829 MADCAP payment for past-due benefits that accrued from
    July 2004 through June 2009. However, because of a coding error that prevented the
    automated calculation of all past-due benefits, SSA did not pay the past-due benefits for the
    period July 2009 through April 2011, which totaled $15,395.

We acknowledge that MADCAP payment actions may be complex and require that staff analyze
a multitude of factors when calculating payments. As such, we emphasize that SSA’s staff must
be diligent in processing MADCAP actions to ensure beneficiaries receive accurate payments.

MADCAP Payments Lacked Evidence of a Second Review
MADCAP payments of $6,000 or more did not always have documentation of the required
approvals. SSA’s policy requires that a Benefit Authorizer review MADCAP payments of
$6,000 or more for payment accuracy. Of our sample of 250 randomly selected MADCAP
payments, 110 met the $6,000 threshold and were subject to this policy. However,
82 (74 percent) of these payments lacked documentation to substantiate the review and approval
of the actions taken and the payment amount. While SSA staff may have appropriately reviewed
and approved these payments, we were unable to verify these actions because documentation
was not available. Two of the 11 MADCAP payment errors we identified involved transactions


Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                       5
requiring review and approval (that is, they exceeded the $6,000 threshold). However, we could
not locate documentation evidencing the required review for either of these cases.

Effective November 22, 2010, for MADCAP payments exceeding $6,000, SSA’s revised policy
requires that responsible employees retain evidence of a Benefit Authorizer’s review and
approval in the Agency’s paperless system—with a long-term retention designation. The long-
term retention designation prevents this evidence from being purged from the paperless system.
Before the revision, SSA’s policy did not provide specific instruction as to the length of the
retention period. Of the 82 MADCAP payments for which we could not locate evidence of an
approval, 12 occurred before SSA revised its policy. Therefore, 12 approvals were not required
to have a long-term retention in SSA’s paperless system. As such, evidence of the required
Benefit Authorizers’ review and approval should have been available for 70 (85 percent) of the
82 MADCAP cases.

CONCLUSIONS
During our audit period, SSA issued inaccurate MADCAP payments to DI beneficiaries. While
the error rate we identified was small, the mistakes resulted in significant incorrect payments.
Specifically, of the 250 randomly sampled MADCAP payments, 11 (4 percent) had payment
errors totaling $32,867—$15,525 in overpayments and $17,342 in underpayments. Based on
these payment errors, we estimate that approximately 18,980 MADCAP payments over
$1,000 that SSA issued between October 1, 2010 and September 31, 2011 had payment errors
totaling about $56.7 million. The MADCAP payment errors we identified resulted from
mistakes in processing various claims actions. In general, these mistakes occurred because SSA
staff did not recognize all the factors that affect DI benefits.

Additionally, MADCAP payments of $6,000 or more did not always have documentation
evidencing the required approvals. Of the 250 randomly selected MADCAP payments, 110 were
for $6,000 or more and required appropriate review and approval. However, 82 (74.5 percent) of
these payments lacked documentation to substantiate the review and approval of the actions
taken and the payment amount. We acknowledge responsible personnel may have reviewed and
approved the payments, but SSA did not retain evidence of these actions in its paperless retention
system.

RECOMMENDATIONS
Accordingly, we recommend that SSA:

1. Issue a reminder to PSC staff, and consider conducting additional training, regarding the
   unique requirements of DI MADCAP payment actions. Given the complexities of this
   workload, SSA should place emphasis on the importance of reviewing one’s work before
   issuing the payments.

2. Ensure that all Benefit Authorizers’ reviews and approvals of MADCAP payments in excess
   of $6,000 are documented and retained in SSA’s paperless document retention system.



Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                          6
3. Take action on the 11 error cases to collect identified overpayments or issue underpayments
   to the beneficiaries. We will provide specific information about these cases separately.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the full text of the Agency’s
comments.




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                        7
                                    APPENDICES




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objectives, we reviewed a random sample of 250 Disability Insurance (DI)
Manual Adjustment, Credit and Award Processes (MADCAP) payments through the Social
Security Administration’s (SSA) Single Payment System. We selected our sample from a
universe of 21,567 DI MADCAP payments that ranged from $1,000 to $29,999.99 between
October 1, 2010 and September 30, 2011. Based on the source documents available, we
determined whether (1) the action creating the MADCAP payment was accurate and (2) there
was evidence of approval for MADCAP payments $6,000 and greater.

We tested more than one control attribute for some MADCAP payments. As a result, some
MADCAP payments have more than one reportable issue and are included as audit findings in
more than one section of the report.

We also:

•   Reviewed relevant laws and SSA’s policies and procedures.

•   Reviewed previous reports pertaining to MADCAP payments.

•   Queried SSA’s Master Beneficiary Record; Supplemental Security Record; Payment History
    Update System; Retirement, Survivors, and Disability Insurance Payment History and
    Worksheet; Master Earnings File; and Workers’ Compensation worksheets.

•   Obtained SSA’s DI paperless files, when needed, and reviewed all relevant documents
    related to the DI MADCAP payment.

The entity audited was the Office of the Deputy Commissioner for Operations. We conducted
our work from June 2012 through February 2013 in Atlanta, Georgia, and Baltimore, Maryland.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                    A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
Sample Methodology
In total, we reviewed a random sample of 250 Title II Disability Insurance (DI) Manual
Adjustment, Credit and Award Processes (MADCAP) payments. We selected our sample from a
universe of 21,567 DI MADCAP payments that ranged from $1,000 to $29,999.99 between
October 1, 2010 and September 30, 2011. We selected the samples from data queried from
segment four of the Master Beneficiary Record (MBR). The MBR is divided into 20 segments
based on the last 2 digits of the beneficiaries’ Social Security numbers, and 1 segment is
representative of the entire 20 segments of the MBR.

We determined the computer-processed data used to select our population were sufficiently
reliable for our intended use. We conducted tests to determine the completeness and accuracy of
the data and achieve our audit objective.

Sample Results
Overall Results – MADCAP Payments Resulting in a Payment Error.

                      Projections of Attribute and Variable Appraisals
                      MADCAP Payments Resulting in a Payment Error
   Population and Sample Data                                Decisions           Dollars
   Total Segment Population                                   21,567           $162,328,413
   Sample Size                                                   250              1,921,659
   MADCAP Payments Resulting in a Payment Error                    11                32,867
   Projection to Population                                  Decisions           Dollars
   Point Estimate                                                949             $2,835,370
   Lower Limit                                                   539                499,665
   Upper Limit                                                  1,544             5,171,076
   Estimate to the Universe (20 Segments)                      18,980           $56,707,400




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                     B-1
           Appendix C – AGENCY COMMENTS




                                       SOCIAL SECURITY


MEMORANDUM


Date:      June 12, 2013                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Payments Resulting from Disability Insurance
           Actions Processed via Manual Adjustment, Credit and Award Processes” (A-04-11-01114)--
           INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                     C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“PAYMENTS RESULTING FROM DISABILITY INSURANCE ACTIONS PROCESSED
VIA MANUAL ADJUSTMENT, CREDIT AND AWARD PROCESSES” (A-04-11-01114)

Recommendation 1

Issue a reminder to PSC staff, and consider conducting additional training regarding the unique
requirements of DI MADCAP payment actions.

Response

We agree. We will issue a reminder to the program service center staff on the unique
requirements of DI MADCAP payment actions through an Administrative Message by the end of
June 2013. After we issue the reminder, we will assess the need for additional training and
continue to emphasize the importance of performing a quality review before issuing payments.

Recommendation 2

Ensure that all Benefit Authorizers’ reviews and approvals of MADCAP payments in excess of
$6,000 are documented and retained in SSA’s paperless document retention system.

Response

We agree that we need to document and retain our review and approval documents of MADCAP
payments in excess of $6,000 in our paperless document retention system. We will issue a
reminder through an Administrative Message by the end of June 2013 to technicians and ask the
programs service center management to emphasize the need to document and retain MADCAP
review and approval documents of MADCAP payments in excess of $6,000 in our paperless
system. We will continue to explore other controls to ensure we retain these documents.

In the long-term, we would like to automate the default paperless retention system. However,
implementing this change requires a significant systems enhancement and is contingent upon
systems resources. We are unable to guarantee a timeframe for implement the auto-retention
enhancement at this time.

Recommendation 3

Take action on the 11 error cases to collect identified overpayments or issue underpayments to
the beneficiaries.

Response

We agree. We will take the necessary actions on the 11 cases by August 1, 2013.




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)                                      C-2
Appendix D – MAJOR CONTRIBUTORS
Theresa Roberts, Acting Director

Frank Nagy, Audit Manager

Valerie Ledbetter, Senior Auditor

Kenley Coward, Audit Data Specialist




Payments Resulting from DI Actions-MADCAP (A-04-11-01114)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
